No. 19-161
IN THE SUPREME COURT OF THE UINITED STATES
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
PETITIONERS
V.
VIJAYAKUMAR THURAIS SIGIAM.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the JOINT APPENDIX, via first-class mail, postage prepaid, this 9TH day of December 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2019.
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0161
DEPARTMENT OF HOMELAND SECURITY, ET AL.
VIJAUAKUMAR THURAIS SIGIAM

LEE P. GELERNT
ACLU - AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
212-549-2660
LGELERNT@ACLU.ORG
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-lA
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
JOHN DAVID LOY
ACLU FOUNDATION OF SAN DIEGO AND
IMPERIAL COUNTIES
P0 BOX. 87131
SAN DIEGO, CA 92138
619-232-2121
DAVIDLOY@ACLUSANDIEGO.ORG
JENNIFER C. NEWELL
AMERICAL CIVLI LIBERTIES UNION
FOUNDATION IMMIGRANTS' RIGHTS
PROJECT
39 DRUMM STREET
SAN FRANCISCO, CA 94111
415-343-0781
JNE WELL @ACLU. ORB

